                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: 108090049                                                                      Page 1 of 1



         This investigation was opened pursuant to findings from other DIG Investigations J that NSF
         employees had circulated and shared sexually explicit material with one another, with other NSF
         employees and contractors, and with unknown individuals outside NSF via email exchanges, using
         NSF IT resources in clear violation of NSF policy. NSF contract employees 2 were identified as
         having sent and/or received emails with inappropriate material. A memorandum was sent to the
         Agency for review and action. NSF forwarded the information to the Contract companl, which
         then issued personnel actions 4 against its employees for violation ofNSF policy on Personal Use of
         NSF's Technology and Communication Resources.

         Accordingly, this matter is closed.




NSF OIG Fonn 2 (JII02)
